Audit Report




OIG-13-013
Audit of the Financial Management Service’s Fiscal Years 2012
and 2011 Schedules of Non-Entity Assets, Non-Entity Costs and
Custodial Revenue
November 16, 2012




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              November 16, 2012


            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Management Service’s Fiscal Years
                                    2012 and 2011 Schedules of Non-Entity Assets, Non-Entity
                                    Costs and Custodial Revenue

            I am pleased to transmit the attached audited Financial Management Service’s (FMS)
            Fiscal Years 2012 and 2011 Schedules of Non-Entity Assets, Non-Entity Costs and
            Custodial Revenue (Schedules). Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an audit of the Schedules. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards;
            applicable provisions of Office of Management and Budget (OMB) Bulletin
            No. 07-04, Audit Requirements for Federal Financial Statements, as amended; and
            the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                    •   Independent Auditors’ Report;
                    •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                        and
                    •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                    •   the Schedules present fairly, in all material respects, the FMS’ Non-Entity
                        Assets as of September 30, 2012 and 2011, and the related Non-Entity
                        Costs and Custodial Revenue for the years then ended, in conformity with
                        U.S. generally accepted accounting principles,
Page 2


        •   certain deficiencies in internal control over financial reporting that were
            considered collectively to be a significant deficiency1 (described below),
            and
        •   no instances of reportable noncompliance with laws and regulations tested.

KPMG LLP concluded that FMS’ information technology general controls do not
provide reasonable assurance that: (1) an adequate security management program is
in place; (2) access to computer resources (i.e., data, equipment, and facilities) is
reasonable and restricted to authorized individuals; (3) changes to information
system resources are authorized and systems are configured and operated securely
and as intended; (4) incompatible duties are effectively segregated; and
(5) contingency planning protects information resources, minimizes the risk of
unplanned interruptions and provides for recovery of critical operations should an
interruption occur. Collectively the conditions observed and reported on could
compromise FMS’ ability to ensure security over sensitive financial data related to
Non-Entity Assets, Non-Entity Costs and Custodial Revenue and the reliability of key
systems.

In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated from
an audit performed in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the Schedules or conclusions about the effectiveness of internal control
or compliance with laws and regulations. KPMG LLP is responsible for the attached
auditors’ reports dated November 14, 2012, and the conclusions expressed in the
reports. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a member
of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:     Richard L. Gregg
        Fiscal Assistant Secretary

1
  A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance.
U.S. DEPARTMENT OF THE TREASURY
FINANCIAL MANAGEMENT SERVICE

   Independent Auditors’ Reports and
    Schedules of Non-Entity Assets,
 Non-Entity Costs and Custodial Revenue

      September 30, 2012 and 2011
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE



                                         Table of Contents



                                                                                      Page

Independent Auditors’ Report                                                            1

Independent Auditors’ Report on Internal Control Over Financial Reporting               2

Independent Auditors’ Report on Compliance and Other Matters                            6

Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue                  7

Notes to the Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue     8

Attachment – Management’s Response                                                     25
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service (formerly Financial Management Service):

We have audited the accompanying Schedules of Non-Entity Assets of the U.S. Department of the
Treasury’s Financial Management Service (FMS) as of September 30, 2012 and 2011, and the related
Non-Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts (TMA), hereinafter
referred to as the Schedules) for the years then ended. These Schedules are the responsibility of FMS
management. Our responsibility is to express an opinion on these Schedules based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
FMS’ internal control over financial reporting related to TMA. Accordingly, we express no such opinion.
An audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
Schedules, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall Schedule presentation. We believe that our audits provide a reasonable basis
for our opinion.

In our opinion, the Schedules referred to above present fairly, in all material respects, the FMS’ Non-Entity
Assets as of September 30, 2012 and 2011, and the related Non-Entity Costs and Custodial Revenue for the
years then ended in conformity with U.S. generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our reports dated November 14,
2012, on our consideration of FMS’ internal control over financial reporting related to TMA and our tests
of its compliance with certain provisions of laws and regulations related to TMA. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




November 14, 2012




                                                                  1
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service (formerly Financial Management Service):

We have audited the Schedules of Non-Entity Assets of the U.S. Department of the Treasury’s Financial
Management Service (FMS) as of September 30, 2012 and 2011, and the related Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA), hereinafter referred to as the
Schedules) for the years then ended, and have issued our report thereon dated November 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for establishing and maintaining effective internal control over
financial reporting related to TMA. In planning and performing our fiscal year 2012 audit, we considered
FMS’ internal control over financial reporting related to TMA by obtaining an understanding of the design
effectiveness of FMS’ internal control related to TMA, determining whether internal controls related to
TMA had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the Schedules, but not for
the purpose of expressing an opinion on the effectiveness of FMS’ internal control over financial reporting
related to TMA. Accordingly, we do not express an opinion on the effectiveness of the FMS’ internal
control over financial reporting related to TMA. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting related to TMA was for the limited purpose
described in the third paragraph of this report and was not designed to identify all deficiencies in internal
control over financial reporting related to TMA that might be deficiencies, significant deficiencies, or
material weaknesses. In our fiscal year 2012 audit, we did not identify any deficiencies in internal control
over financial reporting related to TMA that we consider to be material weaknesses, as defined above.
However, we identified certain deficiencies in internal control over financial reporting related to TMA
described in Exhibit I that we consider collectively to be a significant deficiency in internal control over
financial reporting related to TMA. A significant deficiency is a deficiency, or a combination of
deficiencies, in internal control that is less severe than a material weakness, yet important enough to merit
attention by those charged with governance.


                                                                  2
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
FMS’ written response to the significant deficiency identified in our audit is presented in a separate
Attachment to this report. FMS’ response was not subjected to auditing procedures applied in the audit of
the Schedules and, accordingly, we express no opinion on it.

Exhibit II presents the status of the prior year significant deficiency.

This report is intended solely for the information and use of Bureau of the Fiscal Service management, the
U.S. Department of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.




November 14, 2012




                                                        3
                                                                                                EXHIBIT I

                               U.S. Department of the Treasury
                                Financial Management Service
          Schedules of Non-Entity Assets, Non-Entity Costs, and Custodial Revenue
             Significant Deficiency in Internal Control over Financial Reporting

Information Technology Controls Over Systems Managed by FMS and Third Parties (Repeat
Condition)

FMS relies on an extensive array of information technology (IT) systems to manage the Non-Entity
Assets, Non-Entity Costs and Custodial Revenue (collectively, Treasury Managed Accounts
(TMA)).       Internal controls over these operations are essential to ensure the integrity,
confidentiality, and reliability of critical data while reducing the risk of errors, fraud, and other
illegal acts.

Our review of IT controls covered general and selected application controls over key systems
related to TMA. General controls are the structure, policies, and procedures that apply to an
entity’s overall computer systems. They include security management, access controls,
configuration management, segregation of duties, and contingency planning. Business process
application controls involve input, processing, and output controls related to specific IT
applications.

In fiscal year 2012, we noted that FMS made progress in several areas in its efforts to address this
finding. Despite these improvements, our tests revealed that the necessary policies and procedures
to detect and correct control and functionality weaknesses have not been consistently documented,
implemented, or enforced. FMS’ IT general controls do not provide reasonable assurance that:

    1. An adequate security management program is in place;

    2. Access to computer resources (i.e., data, equipment, and facilities) is reasonable and
       restricted to authorized individuals;

    3. Changes to information system resources are authorized and systems are configured and
       operated securely and as intended;

    4. Incompatible duties are effectively segregated; and,

    5. Contingency planning protects information resources, minimizes the risk of unplanned
       interruptions, and provides for recovery of critical operations should an interruption occur.

Collectively the conditions we observed and reported on could compromise FMS’ ability to ensure
security over sensitive financial data related to TMA and the reliability of key systems.

Because of the sensitivity of the information, we will issue a separate sensitive but unclassified
report to the Commissioner of the Bureau of the Fiscal Service detailing the conditions identified
and our recommendations for corrective action.

Management’s Response:

Management has prepared an official response presented as a separate attachment to this report.
Management agreed with our finding and their comments were responsive to our
recommendations.


                                                     4
                                                                                   EXHIBIT II

                             U.S. Department of the Treasury
                              Financial Management Service
         Schedules of Non-Entity Assets, Non-Entity Costs, and Custodial Revenue
                        Status of Prior Year Significant Deficiency



                    Finding                                   Action           Action in
                                                             Complete          Progress


Information Technology Controls Over Systems Managed by                     Partially resolved
FMS and Third Parties (Repeat Condition)                                    and repeated as a
                                                                               significant
                                                                             deficiency for
                                                                                FY 2012




                                               5
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury
Commissioner, Bureau of the Fiscal Service (formerly Financial Management Service):

We have audited the Schedules of Non-Entity Assets of the U.S. Department of the Treasury’s Financial
Management Service (FMS) as of September 30, 2012 and 2011, and the related Non-Entity Costs and
Custodial Revenue (collectively, Treasury Managed Accounts (TMA), hereinafter referred to as the
Schedules) for the years then ended, and have issued our report thereon dated November 14, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and applicable provisions of Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audit to obtain
reasonable assurance about whether the Schedules are free of material misstatement.

The management of FMS is responsible for complying with laws and regulations applicable to the amounts
reflected in the Schedules. As part of obtaining reasonable assurance about whether the Schedules are free
of material misstatement, we performed tests of compliance with certain provisions of laws and regulations
related to TMA, noncompliance with which could have a direct and material effect on the determination of
the amounts reflected in the Schedules, and certain provisions of other laws and regulations specified in
OMB Bulletin No. 07-04. We limited our tests of compliance to the provisions described in the preceding
sentence, and we did not test compliance with all laws and regulations applicable to FMS. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the previous paragraph, disclosed no instances of
noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

This report is intended solely for the information and use of Bureau of the Fiscal Service management, the
U.S. Department of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress, and is not intended to be and should not be used by anyone other than these
specified parties.




November 14, 2012




                                                                6
                              KPMG LLP is a Delaware limited liability partnership,
                              the U.S. member firm of KPMG International Cooperative
                              (“KPMG International”), a Swiss entity.
                             U.S. DEPARTMENT OF THE TREASURY
                              FINANCIAL MANAGEMENT SERVICE

               Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2012 and 2011
                                          (In Thousands)

                                                                       2012             2011
Non-Entity Assets (Note 6)
  Intra-governmental:
     Fund Balance with Treasury (Note 2)                          $    1,255,123   $    1,003,280
     Accounts Receivable, Net (Note 3)                                   456,171          387,766
     Other                                                                   371              389
  Total Intra-governmental                                             1,711,665        1,391,435

  With the Public:
      Receivable on Deposit of Earnings, Federal Reserve System        2,281,778        1,599,177
      Accounts Receivable, Net (Note 3)                                      824              871
  Total With the Public                                                2,282,602        1,600,048
Total Non-Entity Assets                                           $    3,994,267   $    2,991,483

Commitments and Contingencies (Note 7)

Non-Entity Costs (Note 4)
  Credit Reform: Interest Paid on Uninvested Funds                $    9,923,016   $   10,469,580
  Judgments                                                            3,479,634        2,290,289
  Resolution Funding Corporation                                       2,628,312        2,238,716
  Restitution of Foregone Interest                                        58,870          875,014
  Public Broadcasting Fund, Corporation for Public Broadcasting          444,159          435,128
  Legal Services Corporation                                             355,590          408,233
  District of Columbia                                                   127,575          151,670
  Presidential Election Campaign Fund                                      (264)           35,327
  Federal Railroad Administration for AMTRAK
      Debt Restructuring                                                 309,619           51,526
  Travel Promotion Fund, Corporation for Travel Promotion                100,000           10,000
  Moneys Erroneously Received and Covered                                 46,905           63,387
  Other                                                                   53,429           44,130
Total Non-Entity Costs                                            $   17,526,845   $   17,073,000

Custodial Revenue (Note 5)
  Deposit of Earnings, Federal Reserve System                     $   81,956,891   $   82,545,980
  Recoveries from Federal Agencies for Settlement of Claims
      from Contract Disputes                                             83,256           85,448
  General Fund Proprietary Receipts, Not Otherwise Classified           104,861          122,160
  Fees, Travel Promotion Fund, Corporation for
      Travel Promotion                                                   119,926          115,913
  Fines, Penalties, and Forfeitures, Not Otherwise Classified                921           85,851
  Other                                                                   32,431           22,777
  Total Cash Collections                                              82,298,286       82,978,129
  Accrual Adjustment                                                     749,980        (273,905)
Total Custodial Revenue                                           $   83,048,266   $   82,704,224




                    The accompanying notes are an integral part of these Schedules.
                                                     7
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                 September 30, 2012 and 2011
                                         (In Thousands)

NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

  A. Reporting Entity

     The Financial Management Service (FMS) is a bureau of the U. S. Department of the Treasury
     (Treasury). FMS’ mission is to improve the quality of government financial management. FMS’
     commitment and responsibility is to help its customers achieve success. FMS does this by linking
     program and financial management objectives and by providing financial services, information,
     advice, and assistance to its customers. FMS serves taxpayers, Treasury, Federal program
     agencies, and government policy makers.

     Non-Entity accounts are those Treasury Account Symbols (TAS) that FMS holds but are not
     available to FMS in its operations. For example, FMS accounts for certain cash that the Federal
     Government collects and holds on behalf of the U. S. Government or other entities. These
     Schedules include the activity of Non-Entity TAS managed by FMS. However, the Schedules of
     Non-Entity Assets, Non-Entity Costs and Custodial Revenue (the Schedules) do not include Non-
     Entity Operating Cash of the Federal Government (commonly known as Government-wide Cash).

     Some Non-Entity accounts receive appropriations for specific Federal programs. Some of the
     appropriations are permanent, indefinite appropriations. They are not subject to budgetary
     ceilings established by Congress. Both types of appropriations are used for payments to Federal
     program agencies and others.

     Some Non-Entity accounts receive cash collections. These types of accounts are miscellaneous
     receipt accounts. Examples of collections include interest payments, contributions, and
     collections of fines and penalties.

     The financial activities of FMS are affected by, and are dependent upon, those of Treasury and
     the Federal Government as a whole. Thus, the accompanying schedules do not reflect the results
     of financial decisions and activities applicable to FMS as if it was a stand alone entity.

     On October 7, 2012, the Department of the Treasury bureaus formerly known as the Financial
     Management Service and the Bureau of the Public Debt were redesignated as the Bureau of the
     Fiscal Service.

  B. Basis of Preparation

     The Schedules have been prepared from the accounting records maintained by FMS and are
     meant to report Non-Entity Assets, Non-Entity Costs and Custodial Revenue of FMS in
     accordance with U.S. generally accepted accounting principles. Such principles require the use of
     the accrual method of accounting to record transactions. Under the accrual method, revenues are
     recognized when earned and costs are recognized when a cost is incurred, without regard to
     receipt or payment of cash. These Schedules were prepared following accrual accounting.

               This information is an integral part of the accompanying Schedules.
                                                8
                        U.S. DEPARTMENT OF THE TREASURY
                         FINANCIAL MANAGEMENT SERVICE

      Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                               September 30, 2012 and 2011
                                       (In Thousands)


   The standards used in the preparation of these Schedules are issued by the Federal Accounting
   Standards Advisory Board (FASAB), as the body authorized to establish U.S. generally accepted
   accounting principles for Federal government entities.

   Balances reflected on these Schedules may differ from those on financial reports prepared by
   FMS pursuant to certain Office of Management and Budget (OMB) directives that are primarily
   used to monitor and control FMS’ use of budgetary resources.

C. Use of Estimates in Preparing the Schedules

   The preparation of these Schedules, in conformity with U.S. generally accepted accounting
   principles, requires management to make estimates and assumptions. These estimates affect the
   reported amounts of non-entity assets at the date of the Schedules and the amounts of custodial
   revenues and non-entity costs during the reporting period for the Schedules. Actual results may
   differ from these estimates.

D. Fund Balance with Treasury

   The Fund Balance with Treasury (FBWT) is an asset account that reflects the available budget
   spending authority of Federal agencies. Collections and disbursements by agencies will,
   correspondingly, increase or decrease the balance in the account.

E. Accounts Receivable

   Accounts receivable is comprised of intra-governmental accounts (i.e., amounts due from other
   Federal agencies) and accounts with the public. Accounts with the public include amounts due
   from the Federal Reserve System. FMS records an allowance for uncollectible accounts based on
   an analysis of individual accounts, a group based methodology, or a percentage of total
   receivables and historical collections at September 30.

F. Receivable on Deposit of Earnings, Federal Reserve System

   Federal Reserve Banks are required by the Board of Governors of the Federal Reserve System to
   transfer to the U.S. Treasury excess earnings, after providing for the cost of operations, payment
   of dividends, and reservation of an amount necessary to equate surplus with capital paid in. In the
   event of losses, or a substantial increase in capital, a Federal Reserve Bank will suspend its
   payments to the U.S. Treasury until such losses or increases in capital are recovered through
   subsequent earnings. Weekly payments to the U.S. Treasury may vary significantly. The
   Receivable on Deposit of Earnings, Federal Reserve System, represents the earnings due to
   Treasury as of September 30, but not collected by Treasury until after the end of the month.




              This information is an integral part of the accompanying Schedules.
                                                9
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2012 and 2011
                                        (In Thousands)

G. Custodial Revenue

   Custodial revenue is initially recorded on a cash basis when amounts are deposited into receipt
   accounts. However, an adjustment is reflected on the Schedules at September 30 to accrue for
   collections in a fiscal year relating to prior year’s Non-Entity Accounts Receivable, and to
   account for other changes in the Non-Entity Accounts Receivable not resulting in a collection of
   cash in the current period (i.e., new reimbursements and changes in the allowance for
   uncollectible accounts).

H. Fiduciary Activities

  Fiduciary activities are the collection or receipt, and the management, protection, accounting,
  investment, and disposition by the U.S. Government of cash or other assets in which non-Federal
  individuals or entities have an ownership interest that the U.S. Government must uphold. Fiduciary
  cash and other assets are not assets of the U.S. Government and are not reported on the Schedules.
  They are reported in Note 6 to the Schedules.




              This information is an integral part of the accompanying Schedules.
                                               10
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2012 and 2011
                                          (In Thousands)

NOTE 2. FUND BALANCE WITH TREASURY (FBWT)

  FBWT is funded through various sources depending on the specific legislative authority and purpose,
  and may be used only for specific purposes. Such amounts may be in escrow or other special
  accounts. These accounts are primarily funded through appropriations, collections, tax receipts, gifts
  to the Government, and settlements from foreign countries.

  Obligated balances are funds against which budgetary obligations have been incurred, but
  disbursements have not been made. The Unobligated Available balance is the amount of funds
  available to FMS against which no claims have been recorded. The Unobligated Unavailable balance
  is the amount of unobligated funds remaining from appropriations that have expired, appropriations
  that have not been apportioned, authority that is not available pursuant to public law, and the amount
  of funds in deposit funds, clearing accounts and receipt accounts. FBWT as of September 30, 2012
  and 2011 consisted of the following:

                                                  2012
                                                      Unobligated      Unobligated
      Account Type                     Obligated       Available       Unavailable        Total
      Appropriated Funds                $ 648,557      $ 232,636         $ 2,137        $   883,330
      Revolving Funds                          337           5,449                 -          5,786
      Trust Funds                               58              65                 -            123
      Other Fund Types                           -               -         365,884          365,884
      Total                             $ 648,952      $ 238,150         $ 368,021      $ 1,255,123




                                                  2011
                                                      Unobligated      Unobligated
      Account Type                     Obligated       Available       Unavailable        Total
      Appropriated Funds                $ 586,841       $ 197,746       $          -    $   784,587
      Revolving Funds                          381           6,447                 -          6,828
      Trust Funds                               55              47                 -            102
      Other Fund Types                           -               -         211,763          211,763
      Total                             $ 587,277       $ 204,240       $ 211,763       $ 1,003,280

  The fund balance, unobligated available supports the budgetary resources available except for $310
  thousand as of September 30, 2012 and 2011, which is invested. The fund balance, unobligated
  unavailable for appropriated funds supports the budgetary resources not available. The fund balance,
  unobligated unavailable for other fund types includes only deposit funds and suspense accounts that
  do not have a budgetary impact.

                 This information is an integral part of the accompanying Schedules.
                                                  11
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

        Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                 September 30, 2012 and 2011
                                         (In Thousands)

NOTE 3. ACCOUNTS RECEIVABLE, NET

  A. Intra-governmental Accounts Receivable, Net

     Intra-governmental accounts receivable principally includes amounts for which Federal agencies
     are required to reimburse the Treasury’s Judgment Fund for settlements paid or accrued on their
     behalf for contract disputes pursuant to the Contract Disputes Act of 1978 (CDA) and the
     Notification and Federal Employee Anti-discrimination and Retaliation Act of 2002 (No FEAR).
     While the CDA and No FEAR require Federal agencies reimburse the Judgment Fund for
     payments, CDA and No FEAR do not authorize FMS to initiate collection action against those
     agencies. FMS has historically had difficulty in collecting amounts owed under the CDA. An
     allowance for uncollectible accounts has been established to recognize losses on receivables that
     may not be collected under this program. As a result of the annual review of the uncollectible
     estimate for CDA, the allowance amount for FYs 2012 and 2011 was $930,000 and $900,000
     respectively. During the individual account analysis, it was determined that four of the non-
     reimbursing agencies made up 77% and 82% of the intra-governmental accounts receivable
     balance for FYs 2012 and 2011, respectively. An allowance for uncollectible accounts has not
     been established for No FEAR Act receivables because an agency will be deemed non-compliant
     if it fails to reimburse or make timely arrangements for reimbursement; therefore, amounts owed
     are being collected. The activity in the allowance account each year is reflected in the “Accrual
     Adjustment” line in the custodial revenue section of the Schedules.




               This information is an integral part of the accompanying Schedules.
                                                12
                       U.S. DEPARTMENT OF THE TREASURY
                        FINANCIAL MANAGEMENT SERVICE

      Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                               September 30, 2012 and 2011
                                       (In Thousands)

   Intra-governmental accounts receivable as of September 30, 2012 and 2011 consist of the
   following:

                                                                 2012                2011
    Claims for CDA and Fire Fighting                         $ 1,383,671         $ 1,282,368
    Claims for No FEAR                                             1,474               5,398
    Billing for Water and Sewage Service                                1,026                  -
    Less: Allowance for Uncollectable Accounts – Claims              (930,000)           (900,000)
    for CDA
    Accounts Receivable, Net                                 $       456,171     $       387,766


B. Accounts Receivable with the Public, Net

   Accounts Receivable with the Public, exclusive of amounts due from the Federal Reserve
   System, as of September 30, 2012 and 2011, consist of the following:

                                                                       2012                2011
   U.S. Treasury Check Forgery Insurance Fund Receivables        $      1,172        $      1,421
   General Fund Proprietary Receipts                                      127                 127
   Gross Accounts Receivable                                            1,299               1,548
   Less: Allowance for Uncollectable Accounts – U.S
   Treasury Check Forgery Insurance Fund                                 (475)              (677)
   Accounts Receivable, Net                                      $        824        $       871

   The U.S. Treasury Check Forgery Insurance Fund was established to expedite payments on
   claims and provide a dependable source of funds to meet the Federal Government’s responsibility
   for the payment of settlement checks issued to replace checks paid over forged endorsements.
   The receivable represents the amount due from banks that cashed the forged checks. The
   allowance for uncollectible accounts for Check Forgery is calculated by comparing losses to
   accounts receivable with the public. The percentage represents a portion of the current
   outstanding accounts receivable that are deemed uncollectible.




             This information is an integral part of the accompanying Schedules.
                                              13
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2012 and 2011
                                          (In Thousands)

NOTE 4. NON-ENTITY COSTS

  Non-Entity Costs represent payments made on behalf of the Federal Government through various
  Treasury Managed Accounts (TMA) described below. In addition, Non-Entity Costs also include
  accruals for which FMS has made a commitment to make a payment for claims, such as payments
  from the Judgment Fund, existing as of September 30, 2012 and 2011.

  Credit Reform: Interest Paid on Uninvested Funds - Direct loan and loan guarantee financing
  accounts receive various payments, repayments and fees, and make payments on defaults. When cash
  receipts exceed outlays or when an agency does not disburse all of its borrowings, these balances are
  held in the Treasury and earn interest. The interest earned on these balances is collected by each
  federal agency from FMS.

  Judgments - FMS processes payments from the Judgment Fund for certain judicially and
  administratively ordered monetary awards against the United States, as well as amounts owed under
  compromise agreements negotiated by the United States Department of Justice in settlement of claims
  arising under actual or imminent litigation.

  Resolution Funding Corporation - The Resolution Funding Corporation (REFCORP) account is
  maintained pursuant to the Federal Home Loan Bank Act. FMS provides payments to REFCORP to
  cover the interest expenses of REFCORP.

  Restitution of Foregone Interest - This account is used to restore “lost” interest to investing program
  agencies such as the Civil Service Retirement and Disability Trust Fund, the Thrift Savings Fund, and
  the Postal Service Retiree Health Benefits Fund after a Debt Issuance Suspension Period (debt crisis)
  has ended. In certain situations the Secretary of the Treasury pays interest to the Government
  Securities Investment Fund from the general fund of the Treasury when funds could not be invested
  as a result of a debt issuance suspension.

  Public Broadcasting Fund, Corporation for Public Broadcasting - This account is used to make
  annual payments to the Corporation for Public Broadcasting pursuant to the enacted Public Law. The
  payment is used to assist and facilitate the full development of public telecommunications in which
  programs of high quality, diversity, creativity, excellence, and innovations will be made available to
  public telecommunications.

  Legal Services Corporation - This account is used to pay the Legal Services Corporation through
  letter of credit drawdowns. The Legal Services Corporation distributes appropriated funds to local
  nonprofit organizations that provide free civil legal assistance, according to locally determined
  priorities, to people living in poverty. Congress chartered the corporation as a private, non-profit
  entity outside of the Federal Government.




                 This information is an integral part of the accompanying Schedules.
                                                  14
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2012 and 2011
                                        (In Thousands)

District of Columbia - Payments to the District of Columbia cover certain operations of the District of
Columbia. It includes payments for a program of management reform, for the administration and
operation of correctional facilities, and for construction and repair of the District’s infrastructure.

Presidential Election Campaign Fund - The Presidential Election Campaign Fund (PECF) is
maintained in accordance with the Internal Revenue Code. The purpose of the PECF is to defray the
qualified campaign expenses which were incurred by eligible presidential candidates or nominating
conventions. The PECF is a special fund financed through the collections of the $3 check-off option
selected by taxpayers. These amounts are collected by the Internal Revenue Service and deposited
into the PECF.

The PECF is broken down into the following accounts: Presidential Primary Matching Payment
Account; Presidential Nominating Convention Account; and Presidential and Vice Presidential
Nominee Account (General Election). Each account is funded in accordance with budget estimates
provided by the Federal Election Commission (FEC). Payments from the PECF are made to qualified
recipients upon certification from the FEC.

The negative non-entity cost of $264 reported on the FY 2012 Schedule represents a refund from a
PECF recipient who, in FY 2012, repaid funds received in a prior fiscal year.

Federal Railroad Administration for AMTRAK Debt Restructuring - This current, indefinite
appropriation was established pursuant to Public Law 110-432. The Passenger Rail Investment and
Improvement Act (PRIIA) of 2008, which provides that the Secretary of the Treasury, in consultation
with the Secretary of Transportation and the National Railroad Passenger Corporation (Amtrak), may
make agreements to restructure (including repay) Amtrak’s indebtedness, including leases,
outstanding as of October 16, 2008. The Secretary of the Treasury and Secretary of Transportation,
acting through the Federal Railroad Administration (FRA), in consultation with each other and
Amtrak, will advance payments reflecting the early buy-out options (EBO’s) on select leases entered
into by Amtrak.

Travel Promotion Fund, Corporation for Travel Promotion - This account was established pursuant
to the Travel Promotion Act of 2009, as amended (22 U.S.C. 2131). The act establishes the
Corporation for Travel Promotion as a non-profit entity which shall not be an agency of the United
States Government. For each of the fiscal years 2012 – 2015, the Secretary of the Treasury shall
transfer not more than $100 million to the Fund which shall be made available to the Corporation.
Transfers to the fund are based on collections of Department of Homeland Security (DHS) visa fees
deposited during the previous fiscal year.

Moneys Erroneously Received and Covered - This account is used for expenditures made for
collections or other receipts erroneously deposited into Treasury. Collections represent receipts that
were not properly chargeable to any other appropriation.




               This information is an integral part of the accompanying Schedules.
                                                15
                          U.S. DEPARTMENT OF THE TREASURY
                           FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2012 and 2011
                                          (In Thousands)

  Other - Other Non-Entity costs include the following payments: Payments to the States, Payments to
  Agencies for Interest on Uninvested Funds, Payment to the Institute of American Indian and Alaskan
  Native Culture and Arts Development, Payments from the U.S. Treasury Check Forgery Insurance
  Fund, Payments to Individuals under Private and Public Relief Laws, Payments from the Partnership
  Fund for Program Integrity Innovation, and Payments from Biomass Energy Development.

NOTE 5. COLLECTIONS OF CUSTODIAL REVENUE

  FMS collects Custodial Revenue that is not related to its mission and distributes the full amount
  collected to the Treasury General Fund. For the years ended September 30, 2012 and 2011, cash
  collections were as follows:

                                                                            2012
                                                         October to      January to
                                                         December        September
                                                            2011            2012          Total
   Deposit of Earnings, Federal Reserve System           $15,854,675     $66,102,216    $81,956,891
   Recoveries from Federal Agencies for Settlement of
      Claims from Contract Disputes                           37,657          45,599         83,256
   General Fund Proprietary Receipts                          28,912          75,949        104,861
   Fees, Travel Promotion Fund                                24,249          95,677        119,926
   Fines, Penalties, and Forfeitures                              19             902            921
   Other                                                      12,660          19,771         32,431
   Total                                                 $15,958,172     $66,340,114    $82,298,286


                                                                            2011
                                                          October to      January to
                                                          December        September
                                                            2010            2011          Total
   Deposit of Earnings, Federal Reserve System            $18,753,460     $63,792,520   $82,545,980
   Recoveries from Federal Agencies for Settlement of
      Claims from Contract Disputes                             1,163          84,285        85,448
   General Fund Proprietary Receipts                           24,323          97,837       122,160
   Fees, Travel Promotion Fund                                 25,659          90,254       115,913
   Fines, Penalties, and Forfeitures                               44          85,807        85,851
   Other                                                        3,228          19,549        22,777
   Total                                                  $18,807,877     $64,170,252   $82,978,129




                This information is an integral part of the accompanying Schedules.
                                                 16
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2012 and 2011
                                          (In Thousands)

NOTE 6. SCHEDULE OF FIDUCIARY ACTIVITY

  FMS accounts for certain cash that the Federal Government collects and holds on behalf of other
  entities. FMS collects funds from foreign governments to make payments to US nationals. Also, FMS
  maintains an account – Unclaimed Moneys – whose sole purpose, as originally established, is to hold
  moneys in trust for rightful owners (as received by Government agencies from sources outside the
  Government). While these activities are not reported on the Schedules, they are required to be
  reported in the notes to financial statements.

  The following are the funds identified by FMS as fiduciary activities along with activity for the years
  ended September 30, 2012 and September 30, 2011.

  Proceeds and Payment of Certain Unpaid Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3328. Specifically, the Secretary of the
  Treasury shall not be required to pay a Treasury check issued on or after the effective date of 31
  U.S.C. 3328 unless it is negotiated to a financial institution within 12 months after the date on which
  the check was issued; and the Secretary shall not be required to pay a Treasury check issued before
  the effective date of 31 U.S.C. 3328 unless it is negotiated to a financial institution within 12 months
  after such effective date. If a check issued by a disbursing official and drawn on a designated
  depositary is not paid by the last day of the fiscal year after the fiscal year in which the check was
  issued, the amount of the check is withdrawn from the account with the depositary; and deposited in
  the Treasury. A claim for the proceeds of an unpaid check under this code may be paid from a
  consolidated account by this fund symbol.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or
  depositing a check.

  Proceeds of Withheld Foreign Checks
  The authority for this deposit fund is cited in 31 U.S.C. 3329, 3330. Specifically, the Secretary of the
  Treasury shall prohibit a check or warrant drawn on public money from being sent to a foreign
  country from the United States or from a territory or possession of the United States when the
  Secretary decides that postal, transportation, or banking facilities generally, or local conditions in the
  foreign country, do not reasonably ensure that the payee will receive the check or warrant and will be
  able to negotiate it for full value. The account is maintained to receive and hold the proceeds of these
  checks.

  This deposit fund holds non-federal funds not paid to the public due to failure of cashing or
  depositing a check.

  War Claims Fund (Foreign Claims Settlement Commission)
  The War Claims Act of 1948, as amended, was designed to compensate individual American citizens
  and corporations for certain losses incurred by them in specific foreign countries during World War
  II. In order to compensate them, funds were to be made available by the proceeds from the sale of
  enemy assets that were seized under the Trading with the Enemy Act rather than through the
  appropriation process by the Congress.



                 This information is an integral part of the accompanying Schedules.
                                                  17
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2012 and 2011
                                        (In Thousands)

Debt Management Operations
The authority for this deposit fund is cited in 31 U.S.C. 1321. The purpose of this deposit fund is to
account for non-federal collections and the disbursements of fees due to private collection agencies
and individuals.

Albanian Claims Fund
The Albanian Claims program is authorized under the Foreign Claims Settlement Act of 1949 (22
U.S.C. 1627). The statue authorizes special funds to be set up, authorizes investment of funds, and
gives directions on how claims are to be paid. On March 10, 1995, the United States and Albania
signed an agreement providing for the settlement of the United States national’s property claims
against Albania in exchange for a lump-sum payment by Albania to the United States of $2 million.
The $2 million was received by the United States on October 29, 1996, and was invested.

Payment of Unclaimed Moneys
The authority for this deposit fund is cited in 31 U.S.C. 1322. The balance of this account should
represent only moneys which, when claimed, are unequivocally refundable. The sole purpose of the
account, as originally established, was to hold such moneys in trust for rightful owners (as received
by Government agencies from sources outside the Government). Accordingly, items cleared from
agency uninvested trust, revolving and deposit fund accounts for transfer to account 20X6133 must
meet all four of the following criteria: (1) amount is $25.00 or more, (2) a refund, upon claim, would
be absolutely justified, (3) there is no doubt as to legal ownership of the funds, and (4) a named
individual, business, or other entity can be identified with the item.

Libyan Claims Settlement Fund – Department of State, December 2008 Referral
On August 14, 2008, the United States and Libya signed a comprehensive claims settlement
agreement in Tripoli. The agreement is designed to provide rapid recovery of fair compensation for
American nationals with terrorism-related claim against Libya. The U.S. Congress has supported this
initiative by passing the Libya Claims Resolution Act (Public Law 110-301), which was signed into
law by the President on August 4, 2008. On March 23, 2009, the Foreign Claims Settlement
Commission, an independent quasi-judicial federal agency within the Department of Justice,
published notice in the Federal Register announcing the commencement of the first portion of its
Libya Claims Program, pursuant to the International Claims Settlement Act of 1949 and the
December Referral Letter for claims for physical injury. The deadline for filing claims under the
December Referral Letter was July 23, 2009. The Commission received approximately 50 claims
which it is currently processing for adjudication.

Libyan Claims Settlement Fund – Department of State, January 2009 Referral
On August 14, 2008, the United States and Libya signed a comprehensive claims settlement
agreement in Tripoli. The agreement is designed to provide rapid recovery of fair compensation for
American nationals with terrorism-related claim against Libya. The U.S. Congress has supported this
initiative by passing the Libya Claims Resolution Act (Public Law 110-301), which was signed into
law by the President on August 4, 2008. On July 7, 2009, the Foreign Claims Settlement
Commission, an independent quasi-judicial federal agency within the Department of Justice,
published notice in the Federal Register announcing the commencement of the second portion of its

               This information is an integral part of the accompanying Schedules.
                                                18
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2012 and 2011
                                        (In Thousands)

Libya Claims Program, pursuant to the International Claims Settlement Act of 1949 and the January
Referral Letter for six additional categories of claims: (1) claims by U.S. nationals who were held
hostage or unlawfully detained in violation of international law; (2) claims of U.S. nationals for
mental pain and anguish who are living close relatives of a decedent whose death formed the basis of
a death claim compensated by the Department of State; (3) claims of U.S. nationals for compensation
for wrongful death, in addition to amounts already recovered under the Claims Settlement Agreement,
where there is a special circumstances in that the claimants obtained a prior U.S. court judgment in
the Pending Litigation awarding damages for wrongful death; (4) claims of U.S. nationals for
compensation for physical injury in addition to amount already recovered under the Commission
process initiated by the December 11, 2008 referral; (5) claims of U.S. nationals for wrongful death or
physical injury resulting from one of the terrorist incidents covered; and (6) commercial claims of
U.S. nationals. The deadline for filing claims under the January Referral Letter was July 7, 2010.

Kennedy Center Revenue Bond Sinking Fund
The authority for this deposit fund is cited in 98 Stat 1876. The Kennedy Center Revenue Bond
Sinking Fund is a fund set up to retire obligations of the Board of Trustees of the John F. Kennedy
Center for the Performing Arts. Annual deposits are received from the Kennedy Center by the first
day of January and deposited into the fund. Interest is received and reinvested on the Fund every May
and November. The fund matures in the year 2016.

Iranian Claims Settlement Fund
This claims fund is authorized under 22 U.S.C. 1627. The U.S. made an agreement with the
Government of Iran providing for the lump-sum settlement of claims of United States nationals
against Iran of under $250,000 per claim which had been pending against Iran at the Iran-U.S. Claims
Tribunal at the Hague, Netherlands. The claimants had filed these claims through the Department of
State following the signing of the Algiers Accords by the United States and Iran on January 19, 1981.
In addition to the unresolved small claims, the agreement included other claims. Under the terms of
the agreement, Iran assented to the transfer of $105 million to the United States. The United States
and Iran submitted the Settlement Agreement to the Tribunal for approval. It was approved and
became effective on June 22, 1990.

German Democratic Republic Settlement Fund
Title VI of the Act [Public Law 94-542, approved October 18, 1976, 90 Stat. 2509 (22 U.S.C. 1644)]
authorized the Commission to receive and determine claims against the German Democratic Republic
for losses which arose from the nationalization, expropriation, or other taking by that government of
property interests of nationals of the United States. When the program was authorized, no funds were
available for payment of the awards issued by the Commission. The program was completed on May
16, 1981. The Department of State subsequently conducted negotiations with the German Democratic
Republic--and, after unification, with the Federal Republic of Germany--to obtain a claims settlement
to provide funds for the payment of awards. Those negotiations culminated in the signing of a
settlement agreement on May 13, 1992.




               This information is an integral part of the accompanying Schedules.
                                                19
                         U.S. DEPARTMENT OF THE TREASURY
                          FINANCIAL MANAGEMENT SERVICE

       Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                September 30, 2012 and 2011
                                        (In Thousands)

Vietnam Claims Fund
On February 25, 1986, the Foreign Claims Settlement Commission completed a program to determine
the validity and amount of claims of United States’ nationals against the Socialist Republic of
Vietnam arising from the nationalization or other taking of property on or after April 29, 1975, when
the Government of the Republic of Vietnam (South Vietnam) was overthrown. The program had been
authorized by Public Law 96-606, approved December 28, 1980 [94 Stat. 3534 (22 U.S.C. 1645)],
which added Title VII to the Act. The Commission made determinations on 534 claims, granting
awards to 192 claimants in the total principal amount of $99,471,983.51.

Small Escrow Amounts
The authority for this deposit fund is cited in 31 U.S.C. 3513. FMS uses this account to record the
following transactions: unresolved ACH (Automated Clearing House) issues and unidentified
remittances. Therefore, this deposit fund temporarily holds non-federal funds due to the public.

Small Differences Account for Deposit and Check Adjustments
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account was established in 1959 as
a deposit suspense account for adjusting small differences, all small differences $1.00 or less for
deposits and checks only. This account is used to adjust small differences relating to receipt and
payment transactions processed by depositaries, agencies, and disbursing offices.

Suspense, Net Interest Payments to States
The authority for this deposit fund is cited in 104 Stat 1061. The purpose of the account as stated in
the Cash Management Improvement Act of 1990 is to ensure greater efficiency, effectiveness, and
equity in the exchange of funds between the Federal government and the States. The funds in this
deposit fund are non-federal funds owed to the states.

Accounts Payable, Check Issue Underdrafts
The authority for this deposit fund is cited in 31 U.S.C. 3513. This account is used by FMS for
refunds and adjustments due the public.




               This information is an integral part of the accompanying Schedules.
                                                20
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2012 and 2011
                                           (In Thousands)

                                   Schedule of Fiduciary Activity
                              For the Year Ended September 30, 2012


                                                                             All Other           Total
                                                         Unclaimed           Fiduciary         Fiduciary
                                                          Moneys               Funds             Funds

Fiduciary Net Assets, Beginning of Year                  $   451,170     $      367,727    $      818,897

Increases
Contributions to Fiduciary Net Assets                          58,724           142,798           201,522
Investment Earnings                                                 -               669               669
Total Increases                                                58,724           143,467           202,191

Decreases
Withdrawals or Distributions of Fiduciary Net Assets          (1,065)         (200,743)         (201,808)
Total Decreases                                               (1,065)         (200,743)         (201,808)

Net Increase (Decrease) in Fiduciary Net Assets                57,659           (57,276)              383

Fiduciary Net Assets, End of Year                        $   508,829     $      310,451    $      819,280




                 This information is an integral part of the accompanying Schedules.
                                                  21
                           U.S. DEPARTMENT OF THE TREASURY
                            FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2012 and 2011
                                           (In Thousands)

                                   Schedule of Fiduciary Activity
                              For the Year Ended September 30, 2011


                                                                             All Other          Total
                                                         Unclaimed           Fiduciary        Fiduciary
                                                          Moneys               Funds            Funds

Fiduciary Net Assets, Beginning of Year                  $   419,645     $      395,221   $      814,866

Increases
Contributions to Fiduciary Net Assets                          31,830            88,623          120,453
Investment Earnings                                                 -               890              890
Total Increases                                                31,830            89,513          121,343

Decreases
Withdrawals or Distributions of Fiduciary Net Assets            (305)         (117,007)        (117,312)
Total Decreases                                                 (305)         (117,007)        (117,312)


Net Increase (Decrease) in Fiduciary Net Assets                31,525          (27,494)            4,031

Fiduciary Net Assets, End of Year                        $   451,170     $      367,727   $      818,897




                 This information is an integral part of the accompanying Schedules.
                                                  22
                              U.S. DEPARTMENT OF THE TREASURY
                               FINANCIAL MANAGEMENT SERVICE

          Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                   September 30, 2012 and 2011
                                           (In Thousands)

                                       Fiduciary Net Assets
                                     As of September 30, 2012



                                            Unclaimed            All Other             Total Fiduciary
                                             Moneys           Fiduciary Funds              Funds
Fiduciary Assets
Fund Balance With Treasury                   $    508,829          $    296,291            $    805,120
Investments                                             -                15,800                  15,800
Other Assets                                            -                   366                     366
Total Fiduciary Assets                            508,829               312,457                 821,286

Liabilities

Less: Fiduciary Liabilities                             -                (2,006)                 (2,006)
Total Fiduciary Net Assets                   $    508,829          $    310,451           $     819,280

                                       Fiduciary Net Assets
                                     As of September 30, 2011



                                            Unclaimed            All Other             Total Fiduciary
                                             Moneys           Fiduciary Funds              Funds
Fiduciary Assets
Fund Balance With Treasury                   $    451,170          $    291,707            $    742,877
Investments                                             -                75,667                  75,667
Other Assets                                            -                   352                     352
Total Fiduciary Assets                            451,170               367,726                 818,896

Liabilities
Less: Fiduciary Liabilities                             -                     -                       -
Total Fiduciary Net Assets                   $    451,170          $    367,726           $     818,896




                 This information is an integral part of the accompanying Schedules.
                                                  23
                            U.S. DEPARTMENT OF THE TREASURY
                             FINANCIAL MANAGEMENT SERVICE

         Notes to Schedules of Non-Entity Assets, Non-Entity Costs and Custodial Revenue
                                  September 30, 2012 and 2011
                                          (In Thousands)

NOTE 7. COMMITMENTS AND CONTINGENCIES

  A contingency is an existing condition, situation or set of circumstances involving uncertainty as to
  possible payment to FMS. The uncertainty will ultimately be resolved when one or more future
  events occur or fail to occur. For pending, threatened or unasserted litigation, a liability/cost is
  recognized when a past transaction or event has occurred, a future outflow or other sacrifice of
  resources is probable, and the related future outflow or sacrifice of resources can be reasonably
  estimated.

  In the case of Cobell, et al v. Salazar, et al., the plaintiffs allege that the Departments of the Interior
  and Treasury owe an accounting and other trust duties with respect to Individual Indian Monies
  accounted for on the books of both agencies. The plaintiffs also claim that they are owed restitution,
  measured by the amount of money the Government collected from the plaintiffs and did not disburse,
  plus the amount of benefit the Government allegedly earned from using the plaintiff’s money. The
  outcome of this case has been determined as probable and the estimated loss is $3.4 billion. The
  Department of Interior has recorded an accrual for this case. Payments will be made from the
  Judgment Fund, and at that time, an expense will be recorded on Treasury’s books.

  There are numerous legal actions pending against the United States in Federal courts in which claims
  have been asserted that may be based on action taken by FMS. Management intends to vigorously
  contest all such claims. Management believes, based on information provided by legal counsel, that
  losses, if any, for the majority of these cases would not have a material impact on the Schedules.
  There are other cases that could result in significant payouts; however, legal counsel is unable to
  determine the probability of an unfavorable outcome, or determine an estimate or range of potential
  loss, for these matters, if any. No loss accrual has been made for these cases outstanding at September
  30, 2012 or 2011.

  In addition, FMS manages several accounts that may be used for the payment of claims against other
  Federal Agencies. Such payments are reflected in the following Non-Entity cost accounts reflected in
  the Schedules: Judgments and Moneys Erroneously Received and Covered. At September 30, 2012
  and 2011, such claims are in various stages of settlement.




                 This information is an integral part of the accompanying Schedules.
                                                  24
